U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Adolfo R. Arellano v. Denis R. McDonough,
Secretary of Veterans Affairs
S.Ct. No. 21-432

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
17, 2021, and placed on the docket on September 21, 2021. The government’s response is due
on October 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0432
ARELLANO, ADOLFO R.
DENIS R. MCDONOUGH, SEC. OF VA

JAMES R. BARNEY
FINNEGAN, HENDERSON, FARABOW,
GARRETT & DUNNER, LLP
901 NEW YORK AVENUE, NW
WASHINGTON, DC 20001
202-408-4412
JAMES.BARNEY@FINNEGAN.COM

